<html>
<title> - INNOVATIONS IN BATTERY STORAGE FOR RENEWABLE ENERGY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                     INNOVATIONS IN BATTERY STORAGE
                          FOR RENEWABLE ENERGY

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2015

                               __________

                           Serial No. 114-18

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-223 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL                    ERIC SWALWELL, California
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
BILL POSEY, Florida                  MARC A. VEASEY, Texas
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma            DON S. BEYER, JR., Virginia
RANDY K. WEBER, Texas                ED PERLMUTTER, Colorado
BILL JOHNSON, Ohio                   PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          MARK TAKANO, California
STEVE KNIGHT, California             BILL FOSTER, Illinois
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEVE KNIGHT, California             ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas


















                            C O N T E N T S

                              May 1, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Alan Grayson, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     9

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

                               Witnesses:

Dr. Imre Gyuk ,Energy Storage Program Manager, Office of 
  Electricity Delivery and Energy Reliability, Department of 
  Energy
    Oral Statement...............................................    12
    Written Statement............................................    15

Dr. Jud Virden, Jr., Associate Laboratory Director for Energy and 
  Environment Directorate, Pacific Northwest National Laboratory
    Oral Statement...............................................    25
    Written Statement............................................    27

Mr. Phil Giudice, Chief Executive Officer, Ambri
    Oral Statement...............................................    35
    Written Statement............................................    37

Dr. Jay Whitacre, Chief Technology Officer, Aquion Energy
    Oral Statement...............................................    44
    Written Statement............................................    46

Discussion.......................................................    57

             Appendix I: Answers to Post-Hearing Questions

Dr. Imre Gyuk ,Energy Storage Program Manager, Office of 
  Electricity Delivery and Energy Reliability, Department of 
  Energy.........................................................    76

Dr. Jud Virden, Jr., Associate Laboratory Director for Energy and 
  Environment Directorate, Pacific Northwest National Laboratory.    80

Mr. Phil Giudice, Chief Executive Officer, Ambri.................    81

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    84

 
                     INNOVATIONS IN BATTERY STORAGE
                          FOR RENEWABLE ENERGY

                              ----------                              


                          FRIDAY, MAY 1, 2015

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Weber. The Subcommittee on Energy will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time which we might go 
ahead and do. Have you all eaten breakfast? So I want to thank 
you all for being here today.
    Today's hearing is titled Innovations in Battery Storage 
for Renewable Energy.
    I recognize myself for five minutes for an opening 
statement.
    Today, we will hear from government and industry witnesses 
on the state of large-scale battery storage, and recent 
technology breakthroughs achieved through research and 
development at the national labs and universities around the 
country. Our witnesses today will also provide insight into how 
innovative companies are transitioning basic science research 
in battery storage technology to the energy marketplace.
    Energy storage could revolutionize electricity generation 
and delivery in America. Cost-effective, large-scale batteries 
could change the way we power our homes, reduce infrastructure 
improvement costs, and allow renewable energy to add power to 
the electric grid without compromising reliability or 
increasing consumer costs. As a Texan, trust me, I know the 
value of reliable, affordable energy. With a population in 
Texas that is increasing by 1,000 people a day, or more, and 
energy-intensive industries driving consumption, Texas is by 
far the nation's largest consumer of electricity. The Texas 
economy needs reliable and affordable energy to power long-term 
growth, plain and simple. With battery storage technology, 
Texas could count on power from conventional and renewable 
energy sources regardless of the weather, saving money for 
Texas consumers and keeping the Texas power grid reliable and 
secure.
    Although large-scale battery storage has been available for 
decades, there is still more work to be done. Fundamental 
research and development into the atomic and molecular 
structure of batteries is needed to better understand the 
operation, performance limitations, and the failures of battery 
technology. At our national labs, we have the facilities and 
expertise necessary to conduct this basic research. The private 
sector plays an instrumental role in commercializing next 
generation battery technology. Through partnerships with the 
national labs, innovative battery companies can take advantage 
of cutting-edge research and user facilities, and develop cost-
effective, efficient energy storage technology that can compete 
in today's energy marketplace. Instead of duplicating 
deployment efforts that can be done by the private sector, the 
federal government should prioritize basic research and 
development on energy storage. This investment in energy 
storage technology R&D can benefit all forms of energy while 
maintaining that reliability and the security of the nation's 
electric grid.
    Current U.S. policy for advancing the deployment of 
renewable energy is built around federal subsidies and tax 
credits. But these policies only tend to increase costs for the 
American people, and are counterproductive to the development 
of battery storage technology that could make renewable power a 
good investment in the real world. By creating an incentive to 
invest in renewable energy deployment instead of energy 
storage, the federal government is actually steering investment 
away from battery storage technology. And the truth is, without 
affordable and efficient energy storage, renewable energy will 
never be able to match the efficiency, affordability, and 
reliability of fossil fuels. Instead, the federal government 
should end market-distorting subsidies and tax credits for the 
renewable energy industry, and allocate those resources to 
basic research and development necessary to solve the challenge 
of energy storage.
    I want to thank our witnesses for testifying to the 
Committee today, and I look forward to a discussion about 
federal energy storage research and development, and the impact 
efficient and affordable batteries can have on energy 
reliability and security.
    I now recognize the Ranking Member, the gentleman from 
Florida, for an opening statement.
    [The prepared statement of Chairman Weber follows:]

              Prepared Statement of Subcommittee on Energy
                        Chairman Randy K. Weber

    Good morning and welcome to today's Energy Subcommittee hearing 
examining innovations in battery storage technology. Today, we will 
hear from government and industry witnesses on the state of large-scale 
battery storage, and recent technology breakthroughs achieved through 
research and development at the national labs and universities around 
the country. Our witnesses today will also provide insight into how 
innovative companies are transitioning basic science research in 
battery storage technology to the energy marketplace.
    Energy storage could revolutionize electricity generation and 
delivery in America. Cost effective, largescale batteries could change 
the way we power our homes, reduce infrastructure improvement costs, 
and allow renewable energy to add power to the electric grid without 
compromising reliability or increasing consumer costs.
    As a Texan, I know the value of reliable, affordable energy. With a 
population that is increasing by more than 1,000 people per day, and 
energy intensive industries driving consumption, Texas is by far the 
nation's largest consumer of electricity. The Texas economy needs 
reliable and affordable energy to power long-term growth. With battery 
storage technology, Texas could count on power from conventional and 
renewable energy sources regardless of the weather, saving money for 
Texas consumers and keeping the Texas power grid reliable and secure. 
Although large-scale battery storage has been available for decades, 
there is still more work to be done.
    Fundamental research and development into the atomic and molecular 
structure of batteries is needed to better understand the operation, 
performance limitations, and failures of battery technology. At our 
national labs, we have the facilities and expertise necessary to 
conduct this basic research.
    The private sector plays an instrumental role in commercializing 
next generation battery technology. Through partnerships with the 
national labs, innovative battery companies can take advantage of 
cutting edge research and user facilities, and develop cost-effective, 
efficient energy storage technology that can compete in today's energy 
marketplace. Instead of duplicating deployment efforts that can be done 
by the private sector, the federal government should prioritize basic 
research and development on energy storage. This investment in energy 
storage technology R&D can benefit all forms of energy while 
maintaining reliability and the security of the nation's electric grid.
    Current U.S. policy for advancing the deployment of renewable 
energy is built around federal subsidies and tax credits. But these 
policies tend to increase costs for the American people, and are 
counterproductive to the development of battery storage technology that 
could make renewable power a good investment in the real world. By 
creating an incentive to invest in renewable energy deployment instead 
of energy storage, the federal government is steering investment away 
from battery storage technology. And the truth is, without affordable 
and efficient energy storage, renewable energy will never be able to 
match the efficiency, affordability, and reliability of fossil fuels.
    Instead, the federal government should end market-distorting 
subsidies and tax credits for the renewable energy industry, and 
allocate resources to basic research and development necessary to solve 
the challenge of energy storage.
    I want to thank our witnesses for testifying to the Committee 
today, and I look forward to a discussion about federal energy storage 
research and development, and the impact efficient and affordable 
batteries can have on energy reliability and security.

    Mr. Grayson. Thank you, Chairman Weber, for holding this 
hearing. And thank you to our witnesses this morning for 
participating.
    Today we'll be discussing energy storage and the potential 
benefits that can be gained by developing storage technologies. 
Energy storage has the potential to solve problems such as 
interruptions in power on the electric grid, we all know how 
frustrating and, at times, even dangerous a power outage can 
be, and to make intermittent renewable sources of energy more 
practical and affordable.
    Energy storage allows the buying of energy when prices are 
low, and the selling of energy when prices are high. This 
capability can lead to a reduction in energy congestion on 
America's electrical infrastructure; lowering prices for 
consumers, and also potentially lowering utility revenues for 
providers. We have to plan that out accordingly. Well-placed 
storage units can eliminate the need for building additional 
transmission lines in some areas, saving consumers money. These 
challenges to existing energy infrastructure business models 
will grow as residential storage systems become more 
affordable.
    Japan, according to Bloomberg Business, is said to spend 
$670 million in response to the grid issues that it's facing, 
so that it'll be able to accommodate the influx of renewable 
energy, which is often intermittently produced. In contrast, 
our Department of Energy's Office of Electricity Storage 
Program was funded at only $12 million; that's $670 million 
versus $12 million, for Fiscal Year 2015. We need to do better 
than this if we want to maintain a reliable, resilient electric 
grid that can accommodate the many new forms of energy 
production and storage that are emerging today. Lawrence 
Berkeley National Lab estimated the annual costs associated 
with interruptions in power are as high as $135 billion, and 
often it's the commercial and industrial sectors in our economy 
that bear those costs. In a future in which manufacturing 
processes increasingly rely on digital technology, even short, 
brief outages can dramatically impact production and sales.
    Energy storage solutions provide a line of defense against 
the cost of an outage, and it is imperative that America be 
prepared to incorporate storage solutions into energy and 
electrical infrastructure. If we invest wisely, research 
programs in electrical and energy storage can help America move 
from our current 20th century energy grid to a future grid that 
delivers more and pollutes less.
    And federally funded research has the potential to create 
new product lines, new business opportunities, and new 
international markets. Storage technology can make America's 
energy future arrive faster, and that's always our goal; to 
make the future arrive faster.
    Again, I thank each of our witnesses for being here today, 
and I look forward to hearing what each of you has to say.
    Thank you, Mr. Chairman. I yield back my time.
    [The prepared statement of Mr. Grayson follows:]

              Prepared Statement of Subcommittee on Energy
                  Minority Ranking Member Alan Grayson

    Thank you, Chairman Weber, for holding this hearing, and thank you 
to our witnesses for appearing here today.
    Most of us take the electric grid for granted. We flip a switch and 
the lights come on. But all of us have experienced outages.
    Lawrence Berkeley National Lab estimated that the annual costs 
associated with interruptions in power are between $22 billion and $135 
billion, most of which is borne by the commercial and industrial 
sectors.
    As we move to manufacturing and industrial processes that rely more 
and more on digital technology to operate, even short outages can 
impact the cost of doing business. According to the Lab's study, two 
thirds of industrial and commercial outage costs were due to outages 
lasting less than five minutes. These outages alone translate to a $52 
billion dollar price tag.
    Storage can solve this problem.
    We will hear today about many of the other benefits storage can 
provide.
    Even with these benefits, however, storage technologies may face 
opposition because storage is a technology that can permanently disrupt 
the electricity sector's business-as-usual model.
    Storage allows you to buy energy when prices are low, and sell it 
when prices are higher. Likewise storage can be used to reduce 
electricity congestion, lowering prices in high market areas, which 
benefits consumers but lowers utility revenues.
    Well placed storage units can eliminate the need for building 
additional transmission lines, saving consumers money. But this can 
also decrease utility revenues tied to rate increases for capital 
expenditures.
    These challenges to the existing industry business model are the 
beginning. There's more to come. If residential storage systems become 
affordable, business models will need to adapt again.
    It should be noted that, despite the title of this hearing, storage 
isn't really needed to maintain grid reliability when using renewable 
energy until you get to very high penetration levels of around 30 
percent or more, according to the American Wind Energy Association. For 
now, there are actually many other mechanisms to address the 
variability of these resources that are more cost-effective. So a lack 
of storage is not an immediate show-stopper for renewables. But at some 
point, we may well want to go higher than 30%, and affordable large-
scale storage technologies could become an even bigger game-changer for 
our environment as well as our energy security.
    Energy storage is a powerful enabling technology that can benefit 
all of us. It can improve the resiliency and efficiency of our 
electrical infrastructure.
    If we invest wisely, research programs in storage technologies can 
help us transition from our current grid to a future grid with lower 
carbon emissions. And, at the same time, federal research can open up 
new business opportunities, new product lines, and new international 
markets.
    Earlier this year, Bloomberg News reported that the Japanese 
Ministry of Economy, Trade, and Industry (METI) may be investing more 
than $400 million in grid-scale energy storage technologies. In 
contrast, the DOE's Office of Electricity Storage Program FY 2015 
budget was $12 million. The budget request for FY 2016 is $21 million. 
We can do better than this.
    Storage can be the next revolution in our energy future if we 
invest sensibly. We should be doing everything we can to make this 
future come faster.
    Thank you and I yield back.

    Chairman Weber. Thank you, Mr. Grayson. And I now recognize 
the Chairman of the Full Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. I thought I'd 
mention to members at least part of the reason and part of the 
genesis for this hearing today. A couple of years ago, I was 
meeting in my office with the author of a Pulitzer Prize-
winning book on energy. His name is Daniel Yergin, and I 
suspect many of you have heard of him. He also happens to have 
been a college classmate. And I asked him what was the single 
most important thing we could do to help consumers with energy, 
and he replied, develop a better battery, or develop a battery 
that had better storage capability. And even though that 
conversation took place a couple of years ago, that really led 
to today's hearing. And so that's how important I think it is, 
and how important at least one other expert thinks the 
development of better battery storage is as well.
    Mr. Chairman, today the Subcommittee on Energy will examine 
breakthrough technology in battery storage for renewable 
energy. Battery storage is the next frontier in energy research 
and development. Advanced batteries will help bring affordable 
renewable energy to the market without costly subsidies or 
renewable energy mandates. Forty-five percent of new U.S. power 
production last year came from wind turbines, while solar power 
made up 34 percent of new global power capacity. But without 
the capacity to efficiently store the energy produced when the 
sun isn't shining and the wind isn't blowing, renewable energy 
makes a minimal contribution to America's electricity needs. 
Advanced battery technology will enable utilities to store and 
deliver power produced by renewable energy. This will allow us 
to take advantage of energy from the diverse natural resources 
available across the country.
    My home State of Texas offers a ready example of the impact 
battery storage could have on harnessing renewable power. Texas 
is the top wind producing state in the country. The Lone Star 
State currently operates more than 12,000 megawatts of utility-
scale wind capacity; about 1/5 of the total wind capacity in 
the United States. In ideal circumstances, wind generates up to 
18 percent of Texas' power. But even with this significant 
capacity, Texas wind energy cannot produce power on demand. And 
when energy needs are the highest, wind makes up just three 
percent of Texas power generation. Advanced battery technology 
could help the United States meet its energy needs and 
effectively manage its power production when conventional and 
renewable energy resources, which will save money for energy 
consumers. Federal research and development can build the 
foundation for the next breakthrough in battery technology.
    Mr. Chairman, I know votes have been cast, so if--I'd like 
to ask unanimous consent that the rest of my opening statement 
be made a part of the record so that we can at least get our 
witnesses introduced before we need to leave for votes, and 
then I know Members will return after that.
    I will yield back.
    Chairman Weber. Without objection. Thank you.
    [The prepared statement of Chairman Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith
      Prepared Statement of Full Committee Chairman Lamar S. Smith

    Good morning. Today, the Subcommittee on Energy will examine 
breakthrough technology in battery storage for renewable energy.
    Battery storage is the next frontier in energy research and 
development. Advanced batteries will help bring affordable renewable 
energy to the market without costly subsidies or renewable energy 
mandates. Forty-five percent of new U.S. power production last year 
came from wind turbines, while solar power made up 34 percent of new 
global power capacity.
    But without the capacity to efficiently store the energy produced 
when the sun isn't shining and the wind isn't blowing, renewable energy 
makes a minimal contribution to America's electricity needs. Advanced 
battery technology will enable utilities to store and deliver power 
produced by renewable energy. This will allow us to take advantage of 
energy from the diverse natural resources available across the country.
    My home state of Texas offers a ready example of the impact battery 
storage could have on harnessing renewable power. Texas is the top wind 
producing state in the country. The Lone Star State currently operates 
more than 12,000 megawatts of utility-scale wind capacity--about one-
fifth of the total wind capacity in the United States. In ideal 
circumstances, wind generates up to 18 percent of Texas' power.
    But even with this significant capacity, Texas wind energy cannot 
produce power on demand. And when energy needs are the highest, wind 
makes up just 3 percent of Texas power generation. Advanced battery 
technology could help the U.S. meet its energy needs and effectively 
manage its power production from conventional and renewable energy 
resources, which will save money for energy consumers.
    Federal research and development can build the foundation for the 
next breakthrough in battery technology. At the Pacific Northwest 
National Lab (PNNL), home to one of today's witnesses, researchers are 
developing new approaches for large-scale energy storage. PNNL conducts 
research on battery technologies, including innovative battery 
electrodes to improve energy storage capacity.
    Using the powerful transmission electron microscope at the 
Environmental Molecular Sciences Laboratory, scientists can study 
damage caused by battery recharging.
    This basic research on the fundamental challenges to safe, 
efficient, and affordable battery technology has incredible value and 
application for the private sector. It will help the private sector 
lead the way to bring battery storage technology to the energy 
marketplace.
    Inspired by the fundamental research conducted at the Department of 
Energy national labs and universities around the country, the private 
sector is now investing in battery storage technology. American 
entrepreneurs have invested over $5 billion in battery research and 
development over the last decade, which has helped fuel a renaissance 
in new battery technology.
    Just this week, the tech company Tesla announced it will expand 
into the battery market, manufacturing home batteries to help consumers 
cut costs and to provide back-up power to their homes. And Tesla's 
potential large-scale utility batteries can be used for renewable power 
generation.
    Two of our witnesses today represent innovative energy storage 
companies, with unique battery designs developed through basic 
research. I look forward to hearing more about the impact these new 
concepts for battery chemistry and construction can have on our economy 
and renewable energy production.
    While the private sector funding will deploy next generation 
battery technology into the energy marketplace, the federal government 
should invest in basic research and development that can revolutionize 
battery technology.
    Prioritizing the ongoing partnership between the national labs and 
American entrepreneurs can develop next generation battery technologies 
and keep America at the forefront of battery science.
    Thank you Mr. Chairman and I yield back.

    Chairman Weber. Let me introduce our witnesses. Our first 
witness today is Dr. Imre Gyuk. Okay, good German name. The 
Energy Storage Program Manager for the Department of Energy's 
Office of Electricity Delivery and Energy Reliability. His work 
involves research on a wide variety of technologies, including 
advanced batteries, flywheels, the super-capacitors, and 
compressed air energy storage. Dr. Gyuk received his Bachelor's 
Degree from Fordham University, and his Ph.D. in theoretical 
physics from Purdue University.
    Our next witness is Dr. Virden, Associate Laboratory 
Director for the Energy and Environment Directorate at Pacific 
Northwest National Laboratory. Now, that's a mouthful. At PNNL, 
Dr. Virden leads a team of 1,000 staff in delivering science 
and technology solutions for energy and environmental 
challenges. And he's been with the lab for over two decades. 
Dr. Virden holds two United States patents, and has received 
R&D 100 and Federal Laboratory Consortium awards for non-
thermal plasma technology, a Discover Award from MIT for fuel 
reformation technologies, and he contributed to a Financial 
Times Global Automotive Award for PNNL's assistant to Delphi's 
non-thermal plasma technology for automotive applications. Dr. 
Virden earned his Bachelor's Degree and Ph.D. in chemical 
engineering from the University of Washington. Welcome.
    Mr. Giudice--actually, I'm going to yield to the 
gentlewoman from Massachusetts, because I think she knows 
something about him, to introduce him.
    Ms. Clark. Thank you, Mr. Chairman.
    It is my pleasure to introduce Mr. Phil Giudice, the CEO of 
Ambri, and a constituent of mine from Wayland, Massachusetts. 
Ambri is a technology company in Massachusetts that is creating 
cost-effective and reliable battery technology that has the 
potential to revolutionize the grid. Phil, in addition to 
leading Ambri, has more than 30 years of experience throughout 
the energy industry. He has worked as a geologist, a 
consultant, a manager, and a public servant. I will highlight 
just a few of his many, many accomplishments on his resume. 
Phil is a Board Member for FirstFuel, an efficiency startup; 
Advanced Energy Economy, an energy business leadership trade 
group; and the New England Clean Energy Council. He was an 
appointee to the Department of Energy's Energy Efficiency and 
Renewables Advisory Committee, as well as its State Energy 
Advisory Board. And he has served the Commonwealth as 
Undersecretary of Energy, and Commissioner of the State's 
Department of Energy Resources. I want to thank you, Phil, and 
the entire panel for joining us today, and we look forward to 
your testimony.
    I yield back.
    Chairman Weber. I thank the gentlewoman from Massachusetts.
    Our final witness today is Dr. Jay Whitacre, Founder and 
Chief Technology Officer for Aquion Energy. Dr. Whitacre became 
an Assistant Professor at Carnegie Mellon in 2007, with a joint 
appointment in material science and engineering, and 
engineering in public policy departments, where he developed 
the chemistry that is the basis for Aquion Energy's product 
line. Dr. Whitacre received his Bachelor's Degree in physics 
from Oberlin College, and received his Master's and Ph.D. in 
material science and engineering from the University of 
Michigan.
    That concludes the introduction of the witnesses, and 
unfortunately, as The Chairman said, they have called votes, so 
we are going to recess and then we will reconvene immediately 
after the last vote on the Floor.
    The Subcommittee stands in recess.
    [Recess.]
    Chairman Weber. We're going to reconvene this hearing, and 
we're going to recognize our first witness, Dr. Gyuk.

                  TESTIMONY OF DR. IMRE GYUK,

                ENERGY STORAGE PROGRAM MANAGER,

                 OFFICE OF ELECTRICITY DELIVERY

                    AND ENERGY RELIABILITY,

                      DEPARTMENT OF ENERGY

    Dr. Gyuk. Chairman Smith, Chairman Weber, Ranking Member 
Grayson, and Members of the Committee, thank you for your 
invitation to testify at today's hearing. I appreciate the 
opportunity to tell you about the energy storage program of 
DOE's Office of Electricity Delivery and Energy Reliability, 
and the serious efforts the program is making to address the 
challenges facing the widespread deployment of grid energy 
storage.
    I am pleased to be part of this panel with some of my 
distinguished colleagues who have been great partners over the 
years.
    Last week, the Administration released the first ever 
quadrennial energy review. The QER takes a broad look at the 
infrastructure used for the transmission storage and 
distribution of energy. Several of the QER findings and 
recommendations addressed the opportunities that grid energy 
storage can provide to modernize the electric grid.
    Today, I would like to highlight our work over the last 
dozen years to develop energy storage technology, working on 
materials and devices, and to bring them into 
commercialization.
    The program is firmly based on the knowledge and expertise 
of the National Laboratories. We work with Sandia, Pacific 
Northwest Laboratory and Oak Ridge in a fully integrated 
program which produces cutting-edge research focused on 
commercialization. And this focus on commercialization is 
essential. We also involve universities and industry as 
appropriate. We pursue a wide portfolio of technologies for a 
broad spectrum of applications. Some of the technologies we 
have studied include advanced lead carbon batteries, sodium ion 
systems, magnesium ion systems, and flow batteries involving 
vanadium, zinc iodide and organo-metallics. We bring promising 
chemistries all the way from basic investigations through 
device development, and into licensing and deployment.
    I would like to share some success stories in deploying 
energy storage technologies, and then discuss how OE's program 
is addressing the major challenges.
    At Notrees, a small town near Odessa in west Texas, we 
partnered with Duke Energy to build a 36 megawatt facility for 
wind smoothing and frequency regulation. The installation 
helped to inform the Texas Public Utility Commission on 
developing rules for ancillary services. Tehachapi, California, 
is the site of the world's largest wind field. But sometimes 
the wind blows and sometimes it doesn't, and so we partnered 
with Southern California Edison to build an eight megawatt, 
four hour lithium ion facility to mitigate the variable nature 
of the wind.
    I believe strongly that federal programs need to work 
directly with the States, making the expertise developed by the 
national laboratories available to the public. For example, in 
Vermont, we are partnering with the Public Service Department 
to build a disaster-resilient micro-grid, combining four 
megawatts of storage with two megawatts of photovoltaics. 
During emergencies, the facility can function as a community 
shelter and maintain critical services indefinitely, even 
without input from the surrounding grid, which may well be 
down. In Detroit, we are exploring a community energy storage 
concept, incorporating reused electrical vehicle batteries. In 
Washington State, we are leveraging state funds to 
commercialize a battery technology that started with research 
at PNNL. Avista just inaugurated a one megawatt, three hour 
flow battery based on vanadium a few weeks ago, and two 
megawatts with Snohomish will soon follow. We will evaluate the 
operation of the facility, and make careful cost benefit 
evaluations.
    DOE has developed a strategic energy storage plan which 
identifies four priorities, which form the framework for the OE 
Storage Program. One is lowering costs. That comes first. Two 
is validating reliability and safety. Three is helping to 
develop an equitable regulatory environment for storage. And 
four is furthering industry acceptance. The program has 
provided key leadership in establishing energy storage as an 
effective tool for promoting grid reliability, resilience, and 
better asset utilization of renewable Energy.
    Although grid energy storage has made a credible beginning, 
much remains to be done. DOE looks forward to continuing this 
important work. As our electric grid evolves, we expect that 
energy storage will be an integral component in assuring that 
electricity delivery for communities, business, and industry 
will be more flexible, secure, reliable, and environmentally 
responsive.
    Mr. Chairman, and members of the Committee, this completes 
my prepared statement. I will be happy to answer any questions 
you may have.
    [The prepared statement of Dr. Gyuk follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Weber. Thank the doctor. And we're going to move 
to our second witness, Dr. Virden.

               TESTIMONY OF DR. JUD VIRDEN, JR.,

                 ASSOCIATE LABORATORY DIRECTOR

            FOR ENERGY AND ENVIRONMENT DIRECTORATE,

             PACIFIC NORTHWEST NATIONAL LABORATORY

    Dr. Virden. Chairman Smith, Chairman Weber, Ranking Member 
Grayson, and Members of the Subcommittee, thank you for the 
opportunity to testify in today's hearing.
    My primary message today is that, even with the tremendous 
amount of excitement about the emerging U.S. energy storage 
market, there is still plenty of need for R&D innovations that 
increase performance, reduce lifecycle costs, and improve 
safety of the next generation of battery storage technologies. 
The presence of Aquion and Ambri here are evidence to the role 
of innovative researchers. For our part, I am very proud of 
PNNL's battery scientists and engineers who have produced close 
to 300 publications, have filed 91 United States patents, with 
19 granted so far, and seven licenses to U.S.-based companies 
in Washington State, California, and Massachusetts. One of 
these companies, Unit Energy Technologies, or UET, was started 
by two former PNNL employees, scientists, in 2012. UET has 
grown to 50 employees, and they are now deploying their novel 
redox flow battery technology in Washington, California, and 
Germany.
    PNNL recently published the first Institute Scientific 
Investigation, looking at the atomic level changes in lithium 
ion batteries that enabled us to visualize why they short-out 
and fail. The expected lifetime of lithium ion battery systems 
today is generally believed to be 5 to 7 years, and grid 
storage batteries will need to last ideally 15 to 20 years. 
This groundbreaking work also confirmed a new approach that 
might dramatically extend the lifetime of lithium ion 
batteries. But despite all these advances, we still have 
fundamental gaps in our understanding of the basic processes 
that influence battery operation, performance, limitations, and 
failures.
    As you know, renewable energy creates many challenges for 
grid operations. Their generation profile does not match up 
exactly with demand, and their generation is intermittent. In 
the Pacific Northwest, we have five gigawatts of wind, and 
sometimes hundreds of megawatts or even gigawatts of RAMs. 
Texas has the same problem with wind, and California with 
solar. Battery storage could solve these problems by smoothing 
out the intermittent generation, and storing energy off-peak to 
be used later when it was most needed. Several of our PNNL 
studies have concluded that for battery storage to be viable, 
it must serve multiple grid applications, such as meeting 
energy demands minute-by-minute, hour-by-hour, storing 
renewable energy at night for use the next day, as well as 
deferring transmission and distribution upgrades. Utilities 
would like battery storage to deliver both high power and lots 
of energy. This is like wanting a car that has the power of a 
Corvette, the fuel efficiency of a Chevy Malibu, and the price 
tag of a Chevy Spark. This is hard to do. No one battery 
delivers both high power and high energy, at least not very 
well or for very long. There are many different types of 
battery chemistries and sizes of batteries. In demonstrations 
around the country, I have counted over 13 different types and 
sizes of batteries being explored. All are in different stages 
of development, validation, and demonstration for grid 
applications.
    While today's batteries can address the higher value-added 
grid applications, the cost of batteries need to be reduced, 
the lifetime expanded, and the safety validated. We believe 
there are three key research and development challenges that 
need to be addressed to significantly improve existing advanced 
battery systems in the near term, along with the longer term 
development of the next generation, lower cost battery systems.
    First, to provide confidence to utilities that new battery 
technologies will meet multiple grid applications, we need 
independent testing and evaluation of energy storage facilities 
to validate performance and safety, along with the continued 
development of codes and standards that allow interoperability 
between different technologies and software.
    Secondly, continued support for basic and applied R&D is 
needed to discover new battery systems, and to better 
understand and predict why batteries don't perform as expected, 
why performance degrades over time, or why they fail. 
Universities and national labs across the country are well 
positioned to address the gap in our lack of fundamental 
understanding.
    Finally, as new technologies make it out of the lab, we 
will need regional field demonstrations that validate the 
lifecycle costs, performance, safety, and overall impact on--
batteries will have on reliability, resiliency, and renewable 
integration. This information is critical to feed back to those 
developing the next generation of batteries.
    Thank you for the opportunity to testify, and I'd be happy 
to answer any questions.
    [The prepared statement of Dr. Virden follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Weber. Thank you, Dr. Virden. Mr. Giudice, you are 
recognized for five minutes.

                 TESTIMONY OF MR. PHIL GIUDICE,

                 CHIEF EXECUTIVE OFFICER, AMBRI

    Mr. Giudice. Thank you, Chairman Weber, Chairman Smith, and 
Ranking Member Grayson, I appreciate the opportunity to testify 
today.
    I'm the CEO, President, Board Member of Ambri, and as you 
know by having this hearing, energy storage has the potential 
to transform our electricity grid in very positive and 
productive ways. Right now, the grid needs to meet, for every 
instant of the day, everywhere, the supply of electricity with 
the demand for electricity, and storage will change everything.
    Today in the United States, one of the ways we meet our 
peak demand is through simple cycle combustion turbines, and 
the capacity factor for those engines is two percent. Literally 
only 160 hours a year are those engines being driven to meet 
the peak demands, and storage could change everything. If we 
are able to meet average demand instead of peak demand, we 
could actually reduce the amount of grid infrastructure 
investment by approximately 1/2 of what our traditional market 
is.
    So there are many different ways that storage could help. 
I'm going to suggest six different areas for federal government 
leadership that would be particularly of interest, and I'll 
give you a little story about Ambri in the context of that.
    First is ARPA-E Programs. So ARPA-E funded campus research 
at MIT, Dr. Sadoway, to look at a very interesting application 
for the--his life's work, which was electrometallurgical 
refining. And basically, he took the same kinds of processes 
that are known in the aluminum smelter world of taking a ton of 
dirt and running electricity through it to produce pure 
aluminum metal at 50 cents a pound, and said what if we could 
make those processes reversible so that we're not only taking 
enormous amounts of electricity off the grid, but we could turn 
around and put it back on the grid. And it was kind of an 
interesting concept, a White Paper sort of exercise, a--that 
attracted funding from ARPA-E in 2007/2008 time frame. The $7 
million grant from ARPA-E made all the difference in the world. 
This was a concept that there was no private money, no other 
public money, that was willing to step up and see if this idea 
could work. With that investment, plus other private sources, 
Dr. Sadoway, and then Dr. Bradwell, were able to drive research 
on campus to actually prove that this concept works, and works 
rather remarkably. They had a team that was up to 20 folks on 
campus advancing this technology, which then enabled the 
company to come together as a private enterprise and seek 
private financing. We are now 50 people, and completely 
privately financed with investments from Bill Gates, Total, 
Khosla Ventures, the--KLP Enterprises and GVB, and we employ 50 
folks and we're out there now delivering our technology to the 
marketplace. So we're--we were formed in 2010, we're just now 
manufacturing our prototypes, and we'll begin delivering them 
this fall. And those go to very interesting customers, 
including the U.S. Department of Defense in Massachusetts and 
Connecticut, the Joint Base Cape Cod and sub-base in Groton, 
Connecticut, Con Ed in New York, Alaska Energy Authority in 
Alaska, and then in Hawaii, two prototypes are going--are 
scheduled to go there end of this year/beginning of next year, 
as well as our first 1 megawatt hour battery storage solution 
to the U.S. Navy at Pearl Harbor towards the end of 2016.
    So this federal money that was able to sort of get behind a 
concept, and become sort of an interesting possible technology, 
is now developing itself and being delivered into the 
commercial marketplace, and looking very, very attractive.
    So one role I encourage is continued support for ARPA-E and 
the work that they're doing. Another--five other possibilities 
include continued support on demonstration projects through the 
Department of Defense and the Department of Energy. Third is to 
continue work with States and Federal Energy Regulatory 
Commission to help them understand and appreciate the full 
value of storage. There's a very clear and compelling need 
between States' roles and rights, and the federal government in 
terms of helping to educate and appreciate the value that 
storage can provide. And then two other areas I'd touch on. One 
is the Loan Guarantee Program which, of course, has gotten a 
lot of coverage, I think plays a very interesting role and 
could be very helpful for storage, both from manufacturing and 
demonstration projects. Federal tax credits and--including in 
master limited partnership clean energy investments as 
possibilities to help this nascent technology that the United 
States, in fact, has the best research going on and the best 
new companies starting to really bear full fruit and become a 
world-dominant provider.
    So I am excited to be here today, and look forward to 
taking any questions that you might have. Thank you.
    [The prepared statement of Mr. Giudice follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Weber. Thank you, Mr. Giudice. Dr. Whitacre, 
you're up.

                 TESTIMONY OF DR. JAY WHITACRE,

                   CHIEF TECHNOLOGY OFFICER,

                         AQUION ENERGY

    Dr. Whitacre. Mr. Chairman, members of the Committee, thank 
you for inviting me to speak today on the innovation and grid 
scale energy storage. I also want to acknowledge the Bipartisan 
Center's American Energy Innovation Council for working with 
your staff on setting up this important hearing.
    I am the Founder and Chief Technology Officer of Aquion 
Energy. I am also still a Professor of Materials Science and 
Engineering, and Engineering Public Policy at Carnegie Mellon 
University.
    Seven years ago, I set out to solve the problem of making 
large-scale energy storage systems that are high-performance, 
safe, sustainable, and cost-effective. The solution we 
developed is an Aqueous Hybrid Ion intercalation battery, which 
is a mouthful, I know, but it's simple. It uses a saltwater 
electrolyte, manganese oxide cathode, carbon composite anode, 
and synthetic cotton separator. We chose these materials 
because they are made from safe, cheap, and abundant elements 
which will make a technology cost of around $100 per kilowatt 
hour achievable when produced at scale. The battery performs 
remarkably well; providing long-duration discharges of up to 20 
continuous hours, while maintaining performance over thousands 
of cycles and, thus, many years of operation.
    We now have over 130 employees and a full-scale 
manufacturing facility in western Pennsylvania, as well as a 
satellite office in Boston. We have been shipping product to 
customers since mid-2014, and our batteries are now deployed or 
under testing with service provides in 18 States, who serve, in 
theory, millions of customers. Our products have also been 
exported overseas to Germany, Australia, Malaysia, the UK, and 
the Philippines, among other locations.
    The story of Aquion is indicative of the kind of public-
private partnership behind many game-changing energy 
technologies. The idea for Aquion's battery came out of my 
research at Carnegie Mellon, which was actually informed by my 
seven years working as a Senior Staff Scientist at NASA's Jet 
Propulsion Laboratory. Shortly after arriving at Carnegie 
Mellon, I started a small exploratory project on this sodium 
ion battery chemistry that resulted in some key early results. 
This allowed me to garner some seed funding from a venture 
capital firm that allowed me to incubate the concept at 
university for a year or so, until some critical performance 
goals were achieved in the lab. At that point, we decided to 
try and start a real company. At the same time, we applied for 
and received Department of Energy funding, which was matched by 
private investors. Set up the facility, focused on prototyping 
battery units, build a pilot-scale production line, and 
demonstrate performance in a grid-connected environment. 
Additionally, that funding supported continuing basic research 
at Carnegie Mellon; the results of which helped us refine the 
technology and our manufacturing processes at the company. 
After pilot production and demonstrating the performance of the 
technology, Aquion was able to raise multiple rounds of private 
investment that has allowed us to scale and commercialize our 
batteries.
    Without this DOE partnership, our early days would have 
been far more challenging, and perhaps Aquion would not have 
made it this far. My decision to--back in 2008 to spin out the 
company was wrought with risk. Aquion had to cross that pre-
revenue valley of death where we're spending a tremendous 
amount of money and time to turn lab results into something 
that was a bankable technology, while--at the same time, while 
the technology and the manufacturing piece is not well defined.
    It is very challenging to find private investors who can 
stomach this much risk. A handful exist, but by themselves, 
it's rare for them to--to them to actually double-down and make 
it happen. And it's even more difficult to get--net new 
technologies like ours and Ambri's scale--to the scale that 
it's been done without this kind of support.
    The partnership I had with DOE was critical for getting 
across this chasm, from a research concept to a marketable 
product with proven performance. Furthermore, we continue to 
collaborate with the DOE. We're actively testing various 
generations of our products, and have partnered with us to 
develop large, in-house energy storage test beds.
    What can be done by the DOE and national labs to advance 
other breakthroughs? The DOE has a solid track record of 
encouraging good ideas and funding projects that can result in 
a significant impact. However, one key aspect that is often 
overlooked early in the technology development process is the 
difficulty of scaling and manufacturing. Since all new energy 
technologies will be both materials and manufacturing-
intensive, focusing more on these aspects of the process early 
on would increase the success rate of translating lab results 
into market products. There is still a tremendous amount of 
important and interesting fundamental science and engineering 
to be done during the process scale-up and manufacturing side 
of any new energy storage technology. I would, therefore, 
encourage the DOE and the national labs to incorporate the 
considerations of scalability early in the technology 
development process, such that they are focused not only on 
what benchtop solutions make sense, but also how to turn a 
benchtop solution into a scaled, mass-produced and relevant 
technology.
    Thank you for the opportunity to share Aquion's story, and 
the attention you are devoting to energy technology and 
development.
    [The prepared statement of Dr. Whitacre follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Dr. Whitacre.
    Did we lose Chairman Smith? Okay. So I will recognize 
myself for five minutes, and start with some interesting 
questions.
    Dr. Gyuk, the Fiscal Year 2016 budget request includes a 
proliferation of battery and energy storage R&D scattered 
throughout DOE, including in the Office of Science, through the 
Joint Center for Energy Storage Research, JCESR. Do you all 
have a name for that, an acronym? JCESR, okay. Which, to me, 
sounds like some kind of salad dressing, but--in ARPA-E, in the 
Vehicle Technologies Program, the Solar Energy Program, the 
Hydropower Program, the Geothermal Program, and Advanced 
Manufacturing Programs at EERE, and then the program you 
manage, the Energy Storage Program in the Office of 
Electricity. So how does the department make sure the highest 
priority research is funded, and how do you avoid duplicative 
research?
    Dr. Gyuk. Thank you for this question, Mr. Chairman. It's a 
very complex question, and I will try to attempt answering at 
least part of it.
    I would like to point out first of all that our particular 
program in the Office of Electricity is the first and original 
program at the Department of Energy. Most of the other programs 
entered the fray when grid storage reached a certain stage of 
development. ARPA-E does very interesting research aimed at 
cutting-edge technology. They are in the form of grants, and 
they have produced some very interesting projects like the 
Ambri project that we have heard about. We also interact with 
them. In fact, I was the person who suggested to the head of 
ARPA-E that he ought to be interested in grid energy storage.
    The Office of Science does basic work on--mostly on the 
electrochemistry involved in storage; catalysis and things of 
that type. We don't do hydropower because there is an office, 
and hydropower is a well-developed technology which has some 
interesting things if you--to advance, but it's not in the 
purview of our particular office.
    Chairman Weber. Let me break in here for a second. Do you 
have a particular person who's tasked with watching these 
different programs, assessing their priority, and determining 
what's the highest level, and if so, who is that?
    Dr. Gyuk. I believe not, however, we are putting together 
the QER Program which will provide more of a framework for not 
only grid energy storage, but also the whole field of grid-
related energy projects.
    Chairman Weber. Okay. Well, forgive me, we're running short 
on time. Do you believe that grid-scale energy storage research 
receives the same priority within the department as vehicle 
battery R&D? Grid-storage research same priority as vehicle 
battery R&D.
    Dr. Gyuk. Battery storage for vehicles has been sponsored 
for a long time, and has produced some very good results on 
lithium ion, and it's also at a much higher budget level than--
--
    Chairman Weber. Well, when I--when we look at the numbers 
in the budget request, I have to tell you that grid-scale 
research looks to be a lower priority, just from the numbers in 
the budget request.
    Dr. Gyuk. I would prefer to call--to say that we have a 
lower budget, but it's not necessarily lower priority.
    Chairman Weber. So--and that was my first question; who's 
assessing those priorities. But let me move on to my third 
question for you. Wouldn't it make sense to cut the overhead 
cost and risk of duplication by combining all of these various 
programs into one battery and one energy storage program at 
DOE? If yes, why--if no, why not?
    Dr. Gyuk. I would have to do this on a personal basis 
because policy decisions of that type are generally made by 
people in the administrative offices.
    Chairman Weber. Okay. All right, well, I'm going to move 
on. All witnesses, very quickly. What impact could large-scale 
energy storage have on electricity reliability and reducing 
cost for customers? I mean that's our goal, right? So just as 
quickly as you can, what impact could large-scale energy 
storage have on electricity reliability and reducing the cost 
for our consumers? Doctor, we'll start back with--actually, 
let's do it backwards. Doctor, let's start over on this end.
    Dr. Whitacre. The impact ranges dramatically depending on 
location, and depending on what kind of infrastructure and what 
kind of degree of renewables are local. In some places it can 
have a profound effect, and others it can be less profound. The 
message really is we need to figure out what locations can 
benefit most from grid-scale storage and implement those first, 
and then let it trickle through.
    As Phil indicated, one of the key things to do is to first 
try and off-set these peaker plants that are very rarely turned 
on. That's a low-hanging fruit. Also finding places where we 
can level out wind or solar. Low-hanging fruit. And from there, 
there are weak points in the grid that are also low-hanging 
fruits. So you phase this in at the biggest pain points first 
and move through. It's hard to put a dollar value on it, but 
there are already significant pain points.
    Chairman Weber. Could you put a percentage on it?
    Dr. Whitacre. Not for the entire country. For different 
locations you can. It's a hard question to sort of average out 
because it's a time question and a location question. I will 
defer.
    Chairman Weber. Okay.
    Mr. Giudice. Yeah, just quickly, I agree completely with 
Dr. Whitacre. The--it is very situationally-specific, 
especially over these next few years. When proven out over this 
next decade and more, I think we could be at an electric system 
that could cost us 30 to 40 percent less than our existing 
electric system----
    Chairman Weber. Less.
    Mr. Giudice. --and largely because less assets will be 
involved. Right now, this is the most capital-intensive 
industry in the world. It's $3 of assets for every $1 of 
revenue that the industry generates across the entire value 
chain, and that's all because we're not using these assets very 
much. A lot of assets are laying idle in preparation for when 
we have our peak demand. So with storage fully developed and 
fully deployed, I think it could be a very, very different----
    Chairman Weber. Well, I love hearing the 20 to 30 percent 
lower, but it just depends on what the investment is. Dr. 
Virden?
    Dr. Virden. Well, thank you for the question. I like one 
part of your question a lot, which is the goal of energy 
storage is to keep prices down.
    Chairman Weber. Yeah.
    Dr. Virden. It'll serve certain very high-end markets 
initially, but the goal is to keep prices down. And it will 
have a huge impact on resiliency and reliability and robustness 
of the grid.
    Let me give you one example. We did an analysis for Puget 
Sound Energy, and they had three substations that were 
basically maxed out at capacity about 9 days out of the year. 
Texas has the same challenges in the middle of the summer. And 
they asked where would energy storage have the biggest impact 
into maintaining the reliability of that substation and the 
distribution feeder. We did the analysis. It turns out you 
could put about a 3 megawatt battery that would run for 3 to 4 
hours at a certain substation. Now, the key was they gave us 
real world data so we could make that analysis. It saved them, 
given the ROI they wanted, $6 million over the other options 
which were upgrading the transmission infrastructure, the 
distribution infrastructure, the substation. So with that 
battery, they can now meet, they believe, 90 percent of the 
challenges they have on that distribution feeder. And the main 
return on investments for them was inter-hour balancing, so 
balancing on that distribution feeder the, you know, inter-hour 
requirements. T&D deferral was the next one. And we often talk 
about renewables, but the arbitrage part of that had very 
little ROI, even though the battery would spend 15 percent of 
the time. So as the previous witnesses said, there's no one 
answer fits all. You almost have to go utility-by-utility and 
what their specific needs are, almost down to the distribution 
level.
    Chairman Weber. Dr. Gyuk, I'll let you weigh-in on that 
quickly please.
    Dr. Gyuk. It's easy because most of the points I would like 
to make have just been covered.
    Chairman Weber. Okay.
    Dr. Gyuk. I think we are all agreed that we have to start 
things slowly, and where we can find the most sensible results. 
Frequency regulation is already cost-effective in at least 
Texas and the FERC areas. Resiliency and emergency preparedness 
is an important one because when you need it, any price is 
good, and that includes the military bases. So military bases, 
islands, coastal areas are beautiful for resiliency. Peaking is 
another one. But the whole thing is about getting the right 
benefit streams, and increasing the asset utilization of the 
system as a whole.
    Chairman Weber. Okay, thank you very much.
    And at this time, I'm going to yield to the Ranking Member.
    Mr. Grayson. Thank you, Mr. Chair.
    Intel spends $5 billion a year on research and development. 
There are several drug companies that actually match that or 
exceed it. Why don't we see the same thing with regard to 
batteries? Batteries are over $100 billion a year in revenue, 
why don't we see Eveready or Duracell or Rayovac doing the same 
kind of research that would, to a large degree, underwrite what 
you do every day? I think Dr. Whitacre alluded to that in his 
testimony, so I'll start over there.
    Dr. Whitacre. Yeah, there was actually a very interesting--
thank you very much. There was a very interesting report done 
by the DOE, perhaps almost ten years ago now, that assessed 
this, and one of the findings was that, early on, I think folks 
recognized--this is for lithium ion batteries specifically, 
that in North America the return on investment on this kind of 
technology is a very long--it's a very long investment window. 
Japan and other folks in Asia were more willing to invest over 
that long period of time, compared to what you might find in 
North America. So there was a general perception that this is a 
long-haul kind of technology development process, and that, in 
some cases, I think it's very difficult for North American and 
North American industry to double-down on a very capital-
intensive, very costly situation.
    Mr. Grayson. Mr. Giudice, go ahead.
    Mr. Giudice. Yeah, so to address the question, this is not 
unique to batteries. This is the--one of the energy challenges 
that the energy industry faces, especially the electricity 
industry, and it's part of the nature of the industry 
structure. There was an organization, the Electric Power 
Research Institute, that was--that came together to try and 
spur R&D and demonstration projects. It's a very small budget. 
The vendors are--have a very small budget. The industry is not 
set to innovate in general, and so it's a--there isn't a model 
in this industry, writ large, not just around batteries, to 
innovate and to invest in the kinds of ideas that could be 
breakthrough. And it's in part related to the nature of this 
industry. It's a highly regulated industry, both federal and 
state. It's not an industry that goes easily into change. When 
you have this kind of asset intensity, we have 30-year lifelong 
assets that they're dealing with, so they're not sort of with 
the mindset of let's keep reinventing ourselves every couple of 
years. And so I think that it really suggests why there's such 
an important federal and other public policy roles to bring us 
to a better energy future.
    Mr. Grayson. So are you suggesting that it's economic or 
that it is regulatory, or that it's cultural, what do you think 
is the most important----
    Mr. Giudice. I think the fundamental economics are not--do 
not reward innovation at this stage, and consequently, the 
regulations are not such that they're spurring change across 
the board. And it relates to smart metering, it relates to all 
kinds of aspects of the electric industry. It's not just as it 
relates to storage. Yeah.
    Mr. Grayson. Doctor? Doctor Virden.
    Dr. Gyuk. Yeah. Well, first of all I'd like to point out 
that there are battery companies that are working on 
innovation. For example, a company in Pennsylvania called East 
Penn worked with us to develop the ultra-battery which has a 
cycle life which is almost 10 times that of a regular lead acid 
battery. General Electric is another company that actively 
works on research. But I agree with you that by and large, the 
battery industry is conservative. And the utility industry is 
conservative also, although we do have forward-looking 
utilities like Southern California Edison, Florida Power and 
Light, First Energy American Public--you know, and various 
other companies of that type. But the federal impetus, I think, 
is helpful in bringing out the best in these companies, and 
coaxing them towards innovation and new battery development.
    Mr. Grayson. Dr. Virden?
    Dr. Virden. Yeah, with the Intel example specifically, 
they've got about an 18-month R&D cycle for next products, and 
huge profit margins. And when you start wandering into the grid 
and the energy storage space, the fundamentals, and I think you 
said it here are it's high capital, high risk, long-term 
payback, and fragmented market, and it makes for uncertainty.
    Mr. Grayson. All right, I see I'm almost out of time, so I 
yield back.
    Chairman Weber. I thank the gentleman.
    Mr. Grayson. I'm sorry. I'm sorry, Mr. Chairman. I have one 
more question.
    Chairman Weber. The gentleman is recognized.
    Mr. Grayson. Thank you.
    Doctor, I'd like you to try to clarify your response to 
Chairman Weber's question earlier about who coordinates the 
various energy storage activities at DOE. Is it true that the 
Secretary established the Undersecretary for Science and Energy 
for that purpose?
    Dr. Gyuk. Yes, that is true.
    Mr. Grayson. All right, thank you.
    Dr. Gyuk. Yeah.
    Mr. Grayson. Now I yield back. Thank you, Mr. Chair.
    Chairman Weber. And now the gentleman that drives a battery 
just about everywhere he goes is recognized. Gentleman from 
Kentucky.
    Mr. Massie. Thank you, Mr. Chairman. I drove an 85 kilowatt 
hour battery here this morning. It has four wheels. And that's 
probably the way to look at it; it's a rolling battery.
    Before I ask some questions about batteries, I want to ask 
Dr. Whitacre and Mr. Giudice about the role that patents play 
in commercializing technology. I think this is something that a 
lot of my colleagues here in Congress don't fully appreciate 
why these are in our Constitution, but can you tell me do 
patents help or hinder you in your quest to commercialize this 
technology?
    Dr. Whitacre. Thank you. I believe that maintaining a 
strong intellectual property stable, both patents as well as 
trade secrets, is critical. Folks will not invest or really 
take heart that you have something that's legitimate unless you 
have some documentation that establishes your right to, you 
know, exercise your idea without being copied immediately. So 
it's critical. And that story really matters.
    On the other hand, I will say especially in the energy 
technology space in general, and batteries specifically, there 
is a tremendous amount of overlapping intellectual property 
right now that is difficult to assess out, and there has been a 
lot of really interesting court cases and a lot of other things 
that go with this. Chemistry materials are hard to patent and 
maintain patent. And there's a difference between right to 
practice, versus right to block.
    So it's critical--I am positive that we wouldn't have got 
the degree of investment that we have gotten without the nine 
or ten patents that we have, and the worldwide patents that we 
have as well. It's super important.
    Mr. Massie. Thank you.
    Dr. Whitacre. On the other hand, you know, it doesn't hurt 
us, for sure.
    Mr. Massie. Right. Let me give Mr. Giudice a chance to----
    Mr. Giudice. Sure. I share the--Dr. Whitacre's perspectives 
on this as well as far as the patents are critical. 
Intellectual property, without having our control of our 
intellectual property, we would not have attracted the 
investors we have. They are all motivated for long-term 
significant positive change for the planet and the country, but 
the financial rewards are what enables them to be able to write 
the checks for us. So I don't think that there's any doubt in 
my mind that without that, it would--it would not have been the 
same kind of conversation.
    Mr. Massie. Thank you. That confirms what my experience, 
when I started a company at MIT with technology from there is 
that, without patents--and you might think you would want all 
this to be shareware, but the reality is the investors will not 
come and invest the money and commercialize in the 
manufacturing unless you have patents. And you have to be able 
to defend them as well. And I know it can get messy with 
overlapping technology, but that's what the courts are for, and 
we can get to the facts.
    So now, I'm sort of on a mission here in Congress to 
protect our intellectual property system, and it's--trust me, 
it's being attacked here right now. Quick--have a few 
questions. What--Dr. Gyuk, what portion of our storage capacity 
right now consists of pumped hydroelectric capacity on the 
grid, just roughly? It seems to be the most conventional at 
this point.
    Dr. Gyuk. It's the vast majority. Pumped hydro is a 
classical technologies--technology. All the utilities that have 
it bless the day when it was put in because it helps them with 
peaking power. I mean it's very difficult to live without it.
    Nonetheless, not very much is being built these days.
    Mr. Massie. Why is that?
    Dr. Gyuk. It's a combination of most--many of these plants 
were built to cope with the hoped-for development of nuclear 
power, because nuclear power likes to put out flat electricity, 
and the pumped hydro was intended to follow the load and do the 
up-and-down. Since nuclear power is not as big a component of 
our national energy budget as was intended, the impetus for 
doing pumped hydro is less.
    Mr. Massie. Thank you.
    Dr. Gyuk. It's also very expensive to build a new pumped 
hydro plant.
    Mr. Massie. Is--and how does it compare like with batteries 
right now, the cost of pumped hydro versus, say, a chemical 
solution?
    Dr. Gyuk. When you take into account a long lifecycle, a 
pumped hydro could run for 20, 30 years easily. You amortize 
over that period and the cost--the lifecycle cost them becomes 
lower than most batteries. And that's sort of what we have to 
crack with battery research. The same is also true for 
compressed air energy storage, of which we have two very good 
examples in the world; one of them in Alabama in Huntsville, 
and the other one in Germany. But we are now developing new 
compressed air energy storage. That's another bulk technology 
that amortizes over long periods of time, and will give us good 
output.
    Mr. Massie. Thank you very much.
    I see my time has expired. Are we going to do another round 
of questions, hopefully? I'll beg for some more time if----
    Mr. Grayson. I don't have any objection to that.
    Mr. Massie. Okay. I yield back then.
    Chairman Weber. The gentleman yields back.
    The gentleman from California is recognized. Or--I'm--yeah, 
that's right. Go ahead, Mark.
    Mr. Takano. Yeah. Thank you, Mr. Chairman. I also 
appreciate the Subcommittee's indulgence to allow me to join 
today. Mr. Chairman, I appreciate the opportunity.
    Mr. Giudice, last week the majority passed a bill out of 
our Committee that would have cut--that did cut funding for 
ARPA-E by 50 percent. In contrast, your testimony strongly 
recommends increasing our support for the agency, and provides 
an excellent example of the critical role that ARPA-E now plays 
in advancing new grid-scale energy storage technologies. Can 
you explain why you believe that ARPA-E is such an important 
part of our nation's energy innovation ecosystem?
    Mr. Giudice. Thank you for the question. Yes, ARPA-E is a 
relatively new agency, and it has done a remarkable job in the 
few short years that it has been up and running and operating. 
I do think that, as we were talking earlier, I think Ranking 
Member Grayson mentioned the comparison of Japanese spending on 
storage, $670 million a year, versus the budget that Imre Gyuk 
controls of $12 million a year. ARPA-E fills a little bit of 
that gap, and it's--their mission, obviously, is much broader 
than just energy storage, but they are there to try and help 
create the breakthroughs that will serve our country and our 
planet for years and years to come. There is no alternative to 
that. There isn't a private sector group that's going to stand 
in to do that, there's not private investors through the 
venture capital-type community that can stand up and take the 
lead on these kinds of innovations. The large corporations are 
spending very small amounts of money because it's not 
economically attractive to them to do that. So there is no one 
else to be able to take on that leadership. I strong encourage 
the continued support for the ARPA-E Program.
    Mr. Takano. Would your company and your technology be 
anywhere near where it is today without the early stage 
investments from ARPA-E? Would it even exist?
    Mr. Giudice. I do not believe it would exist. I don't 
believe that--and to be clear, it was the campus research that 
got funded at MIT, so it was all done under a public-private--
or public partnership with the ARPA-E on that. And that was 
necessary to advance the technology to the point that we could 
attract and have conversation with private investors. So we 
weren't even ready for any kind of conversation with private 
investors when it was just a concept. That was necessary to 
prove out in the laboratories at MIT before it could be at all 
of interest to private investors.
    Mr. Takano. So we see that--we know that you have a number 
of private investors, notable ones, and you're saying to me 
that the private sector could not have done this just on its 
own.
    Mr. Giudice. I'm saying they could, but they would not 
because there is no economic package that makes sense on the--
on its own.
    Mr. Takano. So--I mean in theory, it's possible that they 
could have--they have the capacity----
    Mr. Giudice. That's right.
    Mr. Takano. They have the capacity to do this.
    Mr. Giudice. That's right.
    Mr. Takano. But the market alone doesn't seem to be able to 
move us in this sort of direction. It sometimes takes 
leadership----
    Mr. Giudice. Absolutely.
    Mr. Takano. --through government-funded efforts.
    Mr. Giudice. Yes, that's completely appropriate. I--and you 
look at the profitability in the energy industry of equipment 
and services that are provided to this industry, versus the 
profitability in the Intel example or the pharmaceuticals 
example, and they're just--the private sector isn't making the 
kind of money in this industry to justify spending money on 
concepts that could, in fact, bear great benefit for society. 
And this is a very appropriate role for federal leadership to 
stand in and say, let's figure out what might make sense here, 
and then when it's ready, the federal government can step back 
and the private sector can take it forward for commercial 
deployment and bear full fruit.
    Mr. Takano. I think about how geography and circumstances 
forced a nation like Japan to move in certain directions, and 
our relative geographic situation where we had abundant 
resources, we didn't have to think like they did, but--like 
they did, but I think about the way that they began to dominate 
the car market, the design of their cars and, you know, and 
the--they gained a competitive edge, and I'm worried about our 
Nation keeping a competitive edge in R&D and also in the ways 
we can bring this technology to market, or transfer that 
technology, transfer that knowledge.
    My time is up, Mr. Chairman, and I will yield back.
    Chairman Weber. Gentleman yields back. Thank you.
    I recognize the Chairman of the Full Committee, Chairman 
Smith.
    Chairman Smith. Thank you, Mr. Chairman. And, Dr. Whitacre, 
let me apologize for not hearing your testimony; I had to go 
give a quick speech, but I'm glad to be back. And I am also 
sorry I didn't get to hear all the questions that were posed by 
my colleagues, so I may be plowing some of the same ground.
    But let me direct my first question to Dr. Gyuk, if I 
could, and it is this. First quick question is, you may have 
seen Tesla announce yesterday that they were announcing a new 
sort of home storage battery and a new industrial strength 
battery that presumably had better storage capability than 
others. I don't know how much information you might have read 
about Tesla's new batteries, but do you have any comment on 
them?
    Dr. Gyuk. My information is roughly the same information 
you have. I hear the public announcements. Tesla has a very 
fancy luxury car. They have talked about residential batteries, 
but they really do not have any major part of the market. And I 
wish them well. If they succeed then energy storage will profit 
from it as a whole.
    Chairman Smith. And I'm guessing it's incremental progress, 
not something that's explosive perhaps, or not something that's 
a major breakthrough, but they are on the forefront of car 
batteries in general, so that's why we tend to look to them 
maybe for some of the most--greatest advances in battery 
storage.
    Dr. Virden, you mentioned in your testimony that I heard 
that there are number of gaps in our knowledge about developing 
the next generation battery, and looking for the next 
breakthrough. Given those gaps, do you want to give us any kind 
of a timeline, any kind of a prediction as to when we might 
make those kind of breakthroughs that will dramatically change 
the way we use alternative forms of energy?
    Dr. Virden. Yeah, thank you for the question. I think what 
you're going to see, from my perspective, is two phases. You 
have companies who have taken technologies that maybe have been 
developed over the last five or so years and they're going to 
try to move those to the market, and they're going to try to 
improve them.
    Chairman Smith. Um-hum.
    Dr. Virden. We, for example, on that vanadium redox flow 
battery, which was a well-understood battery, it's been around 
for years, through some fundamental scientific investigations 
in solubility, we are able to increase the capacity by 70 
percent. Not incremental, but kind of revolutionary.
    So you're going to see, I think, those continued advances 
in the pipeline. Maybe five or ten years out are all kinds of 
ideas of--you know, every battery has an anode and a cathode, 
just like your car battery, and an electrolyte in between. And 
you see all kinds of press releases about a new anode material 
that's five times better than anything out there----
    Chairman Smith. Um-hum.
    Dr. Virden. --and it probably is, but as Mr. Whitacre--Dr. 
Whitacre was saying, when you put that in with an electrolyte 
and a cathode, and put it together and then try to scale it, 
all kinds of things don't work. Materials start to fall apart, 
the chemistry isn't well known, there's side reaction, and 
usually what that leads to is loss of performance, loss of 
safety. And we as fundamental scientists don't understand those 
basic mechanisms.
    Chairman Smith. Okay.
    Dr. Virden. So in this ecosystem, you need that fundamental 
research that continues to move the state of knowledge along so 
companies can take that and utilize it, and the unique tools 
that DOE provides they can utilize.
    Chairman Smith. Right.
    Dr. Virden. Then you need companies to spin out and move it 
along. And we do really undervalue the challenge of scale-up. I 
think you're exactly right. In every materials process I see, 
in an experiment in a lab like this big, it works perfectly. 
Then when you want to make thousands of them----
    Chairman Smith. Yeah.
    Dr. Virden. --it doesn't. And so I think that is the 
challenge is filling that U.S. pipeline of fundamental science 
that can spin off, and people can keep moving things forward.
    And with respect to that ecosystem and why it's so hard to 
move things out, there's 3,000 utilities----
    Chairman Smith. Right.
    Dr. Virden. --in this country, and they don't have R&D 
budgets, and they don't have venture capital budgets.
    Chairman Smith. Right, yeah.
    Dr. Virden. And they've got--we've got private, we've got 
public, we've got co-ops. The fragmented market makes it very 
difficult for the ultimate end-user to do the R&D.
    Chairman Smith. Thank you, Dr. Virden. You said five to ten 
years, so I gather that's what you're thinking.
    Let me ask the other witnesses real quickly my last 
question. What's--sorry. And that is, and you're welcome to 
mention your own companies as well, in the case of our last two 
witnesses today, but what do you think is going to be the next 
great breakthrough? And, Dr. Whitacre, we'll go to you, and 
then Mr. Giudice and then Mr. Gyuk.
    Dr. Whitacre. Thank you very much, Mr. Chairman. The--there 
is a tremendous amount--there's a lot of leeway in that 
question, I will say. It's difficult for us to--for me to 
speculate on which vector the breakthrough should be in. 
There's energy density, there's power density, there's cost, 
there is lifetime, there is sustainability. These are all 
different, you know----
    Chairman Smith. Yeah.
    Dr. Whitacre. --axes of innovation. And my sense is which 
axes is more--most important I believe is cost and lifetime. 
And the things that are going to move the bar in that are going 
to be the broad scale and adoption of maybe not necessarily 
completely different kinds of technologies, but understanding 
how to leverage our existing base to get it to the right price 
for the right durability.
    Chairman Smith. Yeah.
    Dr. Whitacre. It's lifetime cost of electricity that 
matters. Electrons are dollars.
    Chairman Smith. Thank you. Mr. Giudice, my time is up, so 
if you'll give me a brief answer.
    Mr. Giudice. Sure. It's going to be less than three years, 
and it's actually demonstrating the technologies that are now 
just getting to the market that are going to show the kinds of 
improvements that we need. And it is all about cost.
    Chairman Smith. And what's the quick technology you're 
talking about?
    Mr. Giudice. Well, I'm excited about Ambri, I'm excited 
about Aquion. There's a few others out there.
    Chairman Smith. Okay, great. Dr. Gyuk?
    Dr. Gyuk. We have driven down the cost of vanadium systems 
to a considerable degree. We are now thinking of taking that 
experience and going into new directions, but with the same 
general approach. Zinc iodide is a possibility. Metalorganics 
and completely organic electrolytes.
    Chairman Smith. Okay. Thank you all.
    Thank you, Mr. Chairman.
    Mr. Massie. [Presiding] Thank you, Chairman Smith. And 
because this is such an interesting topic, and we have such 
great witnesses, we're going to do a second round of questions, 
at the risk of not catching our airplanes. And I appreciate 
your indulgence if you're available to stay for more questions.
    Mr. Takano. Mr. Chairman, you could always give me a ride 
in your car.
    Mr. Massie. Yeah. It will get you there very quickly.
    And at this point I yield five minutes to Mr. Takano from 
California.
    Mr. Takano. Yeah, do you have a battery as part of your 
freestanding house in----
    Mr. Massie. Yes, I have a 45 kilowatt hour lead acid 
battery that's 12 years old, and I'm looking for a replacement, 
by the way, so I want to talk to you after the hearing.
    Mr. Takano. And you're completely off the grid, is that 
right?
    Mr. Massie. Yes, sir.
    Mr. Takano. Literally.
    Mr. Massie. Literally. In this--and because of that, I 
understand the importance of batteries. I have 13 kilowatts of 
solar on my roof, but it does me no good when the sun goes down 
if the batteries can't hold the electricity. And some days, 
because I'm off the grid, the power is literally just kind of 
spilling out. It goes nowhere and doesn't get saved.
    Mr. Takano. I know our Chairman is an expert himself, so I 
thought I'd ask him a question too.
    The question for all of you if you can answer it is, really 
where do you see the greatest potential for targeting future 
federal R&D funding to support emerging markets for grid-scale 
batteries, how we can scale, you know, do the grid-level--I 
mean just how best can we target our federal dollars? And if it 
were me, I would try to raise the R&D levels of spending, but 
what more--what's--what do we need to do next? What are the 
next things we could do, given if you believe that there's a 
role for the federal government in the basic research? Go 
ahead, take----
    Dr. Whitacre. Okay, I'll take a crack. I sort of talked a 
bit about this already. My focus would really be to--I propose, 
and others have mentioned as well, that there are tens of 
amazing bench--like bench-scale results already out there that 
could be breathtaking and super innovative, but getting them to 
the next level, getting into something that is repeatable, 
demonstrable, that is scalable, there's a tremendous amount of 
fundamental and basic science in that process. And I often 
think that there's a boundary drawn between basic science and 
applied science that is maybe technically a little false. 
Right? There's a tremendous amount of basic fundamental 
research in the process of making more than one tiny example of 
something, and why--how do we make that work. And energy 
technologies in general are about replicating and scaling, and 
and this is one of the disconnects. It's so easy to do one 
thing, comparatively speaking, than having lived this, I can 
make you--and I did indeed make a very nice, very individual 
thing years ago, and my life's work the past six years has been 
making it repeatable.
    Mr. Takano. Wonderful. Mr. Giudice?
    Mr. Giudice. Yes, from my perspective, I think from a 
federal leadership standpoint, I would really move towards the 
demonstration and pull through from the market standpoint than 
just on the basic science. And I appreciate the purview of this 
Committee is really more of the R&D side of it, but I really 
believe that there's an enormous amount of work to be done, as 
the largest energy consumer in the world, to start 
incorporating more of these different types of technologies in 
the mix of the energy choices that the federal government is 
making, and then working through all of the policies and issues 
around federal and state regulations to be able to fully value 
what the economics--the potential economic value of storage 
would be, and figure out ways to help make sure that gets as 
fully appreciated as possible as soon as we can.
    Dr. Virden. I'm going to use the all-of-the-above response 
on this one. And I truly believe you have to have the basic 
research to provide the long-term foundation. You're exactly 
right. There's some really cool technology ideas out there, but 
if you don't have the applied sciences, where most of the 
battery work starts to fall apart is when you take it out of 
the lab, put it in a real world battery system, and it's that 
applied science that starts to troubleshoot and figure out why 
they're not performing the way they should. The theoretical 
densities are always really high. When you make one, it drops 
way down. And then you can't get the full feedback until you do 
demonstrations. And if you don't have all those parts of the 
ecosystem, it's hard to innovate rapidly.
    Dr. Gyuk. Couldn't agree more. And that's what our program 
has tried to do; take the applied ideas, drive them through 
developing the devices, and then get them out in the field and 
see how well it performs in the field in the real-life 
situation. And we need to have that entire chain from support 
of basic scientific research, through the scaling into 
prototypes and beyond, and the applications for the first early 
adaptors and demonstrations out in the field.
    Mr. Takano. And just real quickly, do any of you believe 
that this--getting to where we want to go can happen without 
federal leadership? I'll take that as a--no one believes that.
    Okay, well, Mr. Chairman, I yield back.
    Mr. Massie. Thank you. At this point I yield myself five 
minutes. I can't wait.
    Takano. Take as long as you want.
    Mr. Massie. And I've been given permission to take even 
more time.
    But the first thing I want to ask you about, I listened to 
your list of materials, Dr. Whitacre, in your battery, and I 
heard, you know, saline or seawater--saltwater and some other 
things, cotton, some magnesium maybe in there. I was glad I 
didn't hear unobtainium, you know. This is a problem that we 
have when we try to scale things from the lab, you know, 
theoretical to mass production is sometimes you pick a material 
that's hard to obtain or hard to find at those scales. And I 
think one thing we need to be careful of, and I know you 
mentioned vanadium and iodide, which aren't unobtainium, those 
are familiar, is that we don't trade one set of moral 
encumbrances for another if we design materials into our 
batteries that aren't available domestically, and I'm okay with 
free trade, but are only available in politically unstable 
regions. And so could you talk to that issue? Mr. Giudice, you 
mentioned your battery technology, does it have any unobtainium 
in it or any special sauce that we can't get in this country?
    Mr. Giudice. Yeah, so thank you for the question. The 
formation of the company was all about cost, and it was all 
about getting to the lowest possible cost for the delivered 
energy solution, because we know that that's going to make the 
most significant impact. So the chemistries that we utilized, 
we're not public about, there's been a lot of research 
published on our chemistries and other chemistries from the 
group Sadoway work on campus. We haven't disclosed as a company 
what ours is, but it all starts with crustal abundance and 
local supplies as being very, very important. And you're right, 
the initial work on campus was ultrapure materials, working 
inside glove boxes, and looking at could this sort of chemical 
matching work as a battery. And the answer was yes. As an 
industrial company now, we're doing things in open air, and 
we're doing things from industrial grade materials, and it's 
working very, very well. So I think it's an appropriate concern 
to have because it's all about delivering as low a cost, and 
getting as much of an impact as we possibly can. And we're 
quite comfortable that we're on track to do that.
    Mr. Massie. Would anybody else like to comment on that? Dr. 
Gyuk?
    Dr. Gyuk. Yes. There are two charts that I keep in my mind 
when I think about new technologies. One is the chart of 
crustal abundances, which tells you how abundant the things are 
in general, and it also has a subsection on what materials are 
industrial materials. Vanadium is an industrial byproduct of 
the steel industry.
    Mr. Massie. Um-hum.
    Dr. Gyuk. So that's okay. The other one is the chart of 
electro--electric potentials. You need materials that give you 
a large voltage window. Can't be too large if you're dealing 
with water, otherwise you're producing hydrogen and you may 
explode. But these two together define the limits of what we 
look into, and that's why we are interested in organics which 
are basically carbon with stuff added, okay. And once you have 
the way to make it down pat, it should be fairly easy to 
produce industrially in quantity.
    Mr. Massie. Because we're using carbon and hydrogen and 
oxygen, right?
    Dr. Gyuk. Yeah.
    Mr. Massie. Okay.
    Dr. Gyuk. And simple materials.
    Mr. Massie. All right. Well, thank you very much.
    Now, I know that the constraints on a car battery are 
different than the constraints on a stationary application 
where you just go for cost and cycle time, and you don't have 
to worry about weight, but what occurs to me is that--you were 
talking about those fancy cars they make, and I heard my car 
being called fancy, but it's an 85 kilowatt hour battery and 
we're fast approaching 100,000 of those vehicles in, you know, 
domestically. It's--that's like 8.5, if I've got my decimal 
place in the right spot, 8.5 gigawatt hours of capacity running 
around in this country pretty soon. Is there a potential for 
using that wisely, Dr. Virden?
    Dr. Virden. I think there is. There's, you know, practical 
issues like if you do plug your car into the garage, who has 
liability for the battery----
    Mr. Massie. Um-hum.
    Dr. Virden. --if you're using it for, you know, stabilizing 
the grid. Interestingly, we did a study of all NERC/FERC sub-
regions and looked and said how many of the cars could you put 
on--electric vehicles on the grid right now region-by-region, 
and the places where you could put a lot of cars on the grid, 
and the grid could deliver the electricity needed to charge and 
interact, was the Midwest primarily, and it was the places that 
had a lot of coal and natural gas intermediate capacity. And 
interestingly enough, in the west, Washington State, Oregon, 
California, where we're hydro-dominated, you could put the 
least amount of vehicles on the grid and charge them, because 
of our--having to back water up behind the dam at night, and we 
don't have a lot of intermittent capacity. So people are 
looking at the idea. It makes sense. We could handle some of 
the distribution challenges, but there's still a ways to go to 
be able to get that transactive signal that would allow the 
battery to play in that grid market.
    Mr. Massie. If you'll indulge one more question.
    Mr. Grayson. That's fine.
    Mr. Massie. All right. Dr. Whitacre, I know your company is 
making a battery and it's selling it into applications that 
seem to involve different levels of scale. It's sort of the 
unique feature of your battery; you can scale it up and down. 
And this is really a question to all of you, but I'll start 
with Dr. Whitacre. To what degree are we going to be dealing 
with distributed storage, like at the home scale, versus 
centralized storage, and is there even a cost-effective place 
where it makes sense to do home storage? And I start with you, 
Dr. Whitacre.
    Dr. Whitacre. Thank you. For sure it makes sense in some 
locations right now. Hawaii comes to mind as an obvious 
location where the cost of electricity is already so high, and 
the penalties with selling back to the grid during peak solar 
production hours is great, that people would just rather buy 
the battery and do it. And this is a fully distributed customer 
size meter model. There are other places around the world where 
it's even worse. People are--and I should point out that our 
most intriguing early markets are not domestic. We are 
selling--we are exporting to a variety of places; the 
Philippines, Malaysia, you know, everywhere else, where there 
are--the dominant mode right now is distributed diesel 
generation, and they want to get rid of that, it's expensive 
and dirty. They would rather go to solar and batteries. They 
want the right batteries. And----
    Mr. Massie. That's what I tell people that want to go off 
the grid, there's only one thing worse than the battery problem 
and that's the generator.
    Dr. Whitacre. The generator, right. And----
    Mr. Massie. I'm on my first set of batteries, but on my 
fourth generator so----
    Dr. Whitacre. Yeah. Yeah, a couple of our installations, 
yeah, we have some in northern California right now, they've 
been going for almost a year now and we really watch how often 
the generator comes on. That's a big satisfaction piece for the 
customer; how often--and usually we're lucky, most of the time 
in our installations it's just the, you know, the weekly turn 
on to maintain integrity of the generator. That's what you want 
to see. That's a key--it's a key like win for us if we have 
that.
    So--but there are other places, to be honest, in North 
America especially where electricity is very cheap, the grid is 
very reliable, and it's hard to imagine that those residences 
will be wanting to go distributed off-grid.It's--from a 
financial perspective, it's a tough sell. But in those same 
areas, you may have some local grid issues or renewable issues 
where a more centralized storage infrastructure makes sense. So 
again, it's very locationally dependent.
    Mr. Massie. Mr. Giudice.
    Mr. Giudice. Sorry. I agree, and the markets are 
developing, and we'll see how they continue to develop. As you 
think through the 3, 4, 5, six years out, I do think it's going 
to make better sense to keep it at the grid level for the most 
part, and be able to share amongst your neighbors both the 
storage and the distributed generation that might be on 
everybody's rooftop or on everybody's hilltop, but not have to 
duplicate the storage investment on a building-by-building 
basis. I think that there will be better economic value from a 
societal standpoint by doing that. It's a very natural role for 
the grid to be able to provide that at the distribution level, 
and then be able to offset a lot of the other investments that 
would otherwise have to be made by doing it that way. But it's 
going to take some time to work out those business models and 
really be able to put that in place.
    Mr. Massie. All right, my time has very much expired, and 
so I will yield time generously to Mr. Grayson from Florida.
    Mr. Grayson. Thank you.
    The basic idea of a battery, the anode, the cathode, the 
electrolyte, that idea is roughly 200 years old, about as old 
as our country, and it is interesting when you consider all of 
the other technologies that have been developed in the 
meantime; the telephone, the computer, television and so on, 
that we're still basically using the same model that was used 
200 years ago.
    Is there any realistic prospect of moving beyond that model 
for energy storage? Dr. Whitacre.
    Dr. Whitacre. There are certain thermodynamic realties 
about storing electricity and materials, and those realities 
drive us to a sort of bipolar design where you have two 
separate material systems that retain different positive and 
negative charges when you apply a current to them. It's hard to 
imagine a different paradigm using the materials as we 
understand them today to allow this. It is sort of--the anode 
and cathode are a natural reflection of thermodynamics, is the 
way I would put that. So my answer is, if you're talking about 
electrochemical storage, I don't think so. This is the 
paradigm. The key is to enhance our understanding and to 
maximize performance, and explore new material systems and new 
electrode designs and so forth.
    Mr. Grayson. Mr. Giudice?
    Mr. Giudice. So obviously, I think a point was made earlier 
that, as the grid exists now, 97 percent of the storage that's 
done on the grid is pumped storage, mechanically, compressed 
air energy storage, two projects are going. So from an 
electricity storage standpoint, there's alternatives, but from 
an electrochemical battery standpoint, I don't think there are 
alternatives. And then the third form of storage, thermal 
storage, is obviously being utilized in lots of different 
applications as another interesting way to store energy, not so 
much electricity.
    Mr. Grayson. Dr. Virden?
    Dr. Virden. I would agree with the previous witnesses' 
comments, if you're trying to store electrons directly, the 
battery storage is really the only way to go about it. And it 
has practical challenges with, over those 200 years, I don't 
think we've been faced--we've had to face the real issues of 
batteries, but with transmission distribution constraints, 
renewables, we're now having to face directly, you know, how do 
we store energy in a battery.
    Mr. Grayson. Dr. Gyuk?
    Dr. Gyuk. Yeah, I cannot--I need to agree with what you 
have heard so far. If you're doing electrochemistry, you have 
certain limitations on the system. Nonetheless, there are 
directions one can go in. I do not necessarily believe that 
lithium ion is the end all and be all, even for cars. We have 
things to go beyond, but they will not necessarily be, you 
know, totally different.
    Mr. Grayson. Following up on my colleague's question 
regarding distributed versus centralized storage, it seems to 
me that one of the key factors in that regard, whether you 
store electricity or energy centrally, or whether you store it 
household-by-household or business-by-business, is whether 
there are any significant economies with scale in the storage 
that would make up for the transmission losses that you would 
encounter when you distribute that energy from a centralized 
source. So please tell me, again, starting with Dr. Whitacre, 
whether you see any likely economies of scale in storage of 
energy that would offset the transmission losses.
    Dr. Whitacre. Absolutely. I think, depending on where it 
is, you again--I keep on going back to this, but location 
specificity matters depends on how good your transmission and 
how close you are to a centralized power source. By typically, 
I mean there's an argument for some degree of distribution to 
either eliminate the cost and the issues of either augmenting 
or establishing a more centralized traditional grid backbone 
system, or indeed, just by the straight efficiency losses 
associated with transmitting power. If you generate electricity 
on--in a location, you're best apt to store it near or at that 
location. This is happening in Germany right now. There's a 
self-consumption incentive wherein folks are actually driven to 
put batteries in their residence because they're generating 
electrons in their residence, and they--it's a more efficient 
system. So yes, there is.
    Mr. Grayson. So just to be clear, do you see a future of 
big storage, big batteries, or a future of small storage, small 
batteries?
    Dr. Whitacre. You know, I see an intermediate situation. 
There's probably an intermediate thing where there are--there's 
certainly not a single battery in the center of the country, 
right, and there's certainly not a battery in each of our 
pockets. There are--there's an intermediate distribution of 
storage where there's an optimal distribution. Maybe it's at a 
neighborhood level or at a block level, or something--if we 
were to really reduce this down to that kind of question. There 
is some optimal economy of size and distribution. I'm not sure 
exactly what it is, but it's probably more than--it's probably 
outside the residence, but smaller than an entire city.
    Mr. Grayson. Mr. Giudice?
    Mr. Giudice. Yeah, so the market will tell us, and we'll 
see as it goes forward. I do think it's going to make sense, as 
I think where Dr. Whitacre was going, towards the distribution 
side of the business as the dominant place to have it make 
sense. And it's not so much economies of scale of delivering 
storage, but it's economies of the application. So on the 
neighborhood basis where clouds are coming by and we're all 
solar generating on our rooftops, those clouds are sporadically 
shutting off different rooftops as they cover up the sun. The 
storage at each house would have a much different effect than 
if it was storage across that whole small grid area. And I 
think that in terms of reliability and reducing costs, we're 
probably going to find optimal levels at those kinds of 
applications, rather than any central generating storage or 
storage for every single household.
    Mr. Grayson. Dr. Virden?
    Dr. Virden. I think it's going to be distributed at the 
substation level. So for me that's, you know, several megawatts 
in a few megawatt hours. This is beyond frequency regulation 
where you have tens of megawatts. That's the higher value-added 
market right now. I see the home market behind the meter as 
longer term, except in a few places like California and Hawaii.
    That Tesla announcement, by the way, you'll get a battery 
pack that's $3,000, you still have to buy the inverter, so it's 
$4,500, and that would give you about 7 kilowatt hours. That's 
not going to take you off-grid. Our estimates to go off-grid in 
a home, you're spending $15,000 to $20,000 or more, so it's 
still expensive. The community application, to me, makes the 
most sense because you spread the cost and get multiple 
benefits.
    Mr. Grayson. Dr. Gyuk?
    Dr. Gyuk. Yeah, we consider distributed storage to be on 
the distribution side, which means substation and maybe 
slightly above or slightly below. Size from 500 kilowatt to 
about 10 megawatt. Those, I think, are the easiest 
applications. If we are going to go into residences, it's not 
so much residences as small businesses, campuses, business 
parks, and so on, there it makes sense to be behind the meter. 
Individual residences are probably a market considerably in the 
future.
    Mr. Grayson. Thank you. I yield back.
    Mr. Massie. And as we close, I'm going to yield one more 
minute to my friend from California----
    Mr. Takano. Just----
    Mr. Massie. --Mr. Takano.
    Mr. Takano. Just one quick question. What about any kind of 
systems that might generate hydrogen or--and store hydrogen, 
you know, just through electrolysis? I don't know the science 
of it, but--and in combination with a fuel cell.
    Dr. Whitacre. I can quickly comment on that. While this is 
completely technically possible, and folks are still looking at 
doing it, one reality is the roundtrip energy efficiency of 
that kind of system is, at best, 60 percent maybe on the very 
best day. Most of the time it's 50 percent or less. And it's 
simply because the thermodynamics of converting water to 
hydrogen, and then converting it back to water and getting 
electrons, and storing electricity through that process, is 
inherently inefficient. And so this is difficult to compete 
with the 80 or 90 percent roundtrip efficiency we have in 
batteries. And that's a big, big deal when we talk about each 
electron is worth money.
    Mr. Takano. Thank you very much.
    Mr. Massie. Well, in closing, I want to say this has been a 
very enlightening hearing, thanks very much in part to the 
quality of the witnesses and the quality of the questions. And 
it confirms what I--my personal experience which is, batteries 
are not sexy, okay. You know, buckets of acid in your basement 
do not evoke envy from your neighbors, even though blue solar 
panels on your roof might. And--but the reality is this is 
what's holding our country back, this is what's holding 
renewable energy back. In fact, this is holding nuclear energy 
back, this is holding coal-fired energy back. I mean all these 
peak issues, they apply to any energy source that we have. And 
so I think even though it's not as sexy as some of the other 
topics, it is fundamentally very important to moving forward in 
our country is to have a better battery. The world needs a 
better battery. So I thank you for making that point, and 
informing us today on some of the issues. I will say that we 
very much value your testimony today.
    And the members--the record will remain open for two weeks 
for additional comments and written questions from Members.
    And this hearing is adjourned.
    [Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Imre Gyuk

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Jud Virden


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Phil Giudice

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             Prepared statement of Committee Ranking Member
                         Eddie Bernice Johsnon

    Thank you Mr. Chairman, and thank you to our witnesses for being 
here today.
    Today we will hear about the Department of Energy's important role 
in advancing new large-scale energy storage technologies, which are 
critical to making our electric grid more efficient, reliable, and 
resilient, enabling a cleaner environment and lower costs for 
consumers.
    The title of this hearing aside, improvements in energy storage are 
actually important for all forms of electricity generation, not just 
renewable energy production, as demand for electric power is often 
highly variable. Currently, high capacity power plants are required to 
meet expensive peaks in demand while operating below capacity for when 
demand is low. Grid-scale energy storage allows lower capacity plants 
to meet the same demand at a lower cost.
    Dr. Gyuk, I am encouraged by DOE's work on large-scale energy 
storage solutions to date, and I frankly believe that given your track 
record and the size of this problem, your budget should be much, much 
higher than the $12 million that your entire program received last 
year.
    It should be noted that another major contributor to early-stage 
research in this area is ARPA-E. This is yet one more reason that I was 
so dismayed that the majority proposed to cut this agency by 50 percent 
in their COMPETES bill just last week. I look forward to discussing the 
essential role that both ARPA-E and DOE's Office of Electricity play in 
accelerating the development and commercialization of these 
technologies here in the U.S.
    As highlighted in the Department's first, widely praised 
Quadrennial Energy Review--which was released just last week--this area 
is vital to the future of America's energy infrastructure, and there is 
still much more work that needs to be done.
    Thank you and with that I yield back the balance of my time

                                 [all]
</pre></body></html>
